           PUBLIC
          RELEASE


       NATIONAL INSTITUTE OF
  STANDARDS AND TECHNOLOGY

      FY 1995 Superfund Charges to the
       Environmental Protection Agency

        Audit Report No. EDD-9836-7-0001 / July 1997




Office of Audits, Economic Development Audits Division
                                          July 29, 1997


MEMORANDUM FOR:                       John C. McGuffin
                                      Controller
                                      National Institute of Standards
                                         and Technology

FROM:                                 Andrew R. Cochran
                                      Director, Economic Development Audit Division
                                      Office of Audits

SUBJECT:                              NIST FY 1995 Superfund Charges to
                                      the Environmental Protection Agency
                                      Final Audit Report No. EDD-9836-7-0001


The Office of Inspector General has completed its audit of NIST’s use of EPA Superfund
appropriations and prepared the attached final audit report. The audit was completed to fulfill the
requirement under the Superfund Amendments and Reauthorization Act of 1986 for an annual
audit of all Superfund payments and obligations.

We found that NIST had accurately accumulated, documented and charged the Superfund
reimbursable costs for the funds received. The funds were received in advance for all the work
performed by NIST. Our evaluation of the agency’s compliance with laws and regulations
indicated that NIST was in compliance with the relevant financial provisions of the
Comprehensive Environmental Response, Compensation, and Liability Act of 1980, as amended.

NIST also was in compliance with the terms and conditions of the interagency agreements, and
controls over Superfund activities were adequate. During fiscal year 1995 NIST properly tracked
EPA Superfund monies by providing segregated cost centers for the expenditures. As a result, we
are issuing this report in final form with no recommendation needed for future action by NIST.

We appreciate the cooperation and courtesies extended to us by NIST officials during the audit.
Introduction

Among its many efforts to contribute to public health and safety, NIST provides technical
research to counteract the effects of toxic waste spills. This work is performed on a reimbursable
basis through interagency agreements with the EPA. Funds for the agreements are appropriated
through the Hazardous Substance Response Trust Fund, more commonly referred to as the
“Superfund.” The Superfund is used to identify the nation’s uncontrolled hazardous waste sites,
assign priorities to the risks they create and work to eliminate those risks.

The Superfund program, created under the Comprehensive Environmental Response,
Compensation, and Liability Act of 1980, established the Superfund to provide funds for
identifying, prioritizing, and remedying the nation’s uncontrolled hazardous waste sites. The 1980
Act, as amended by the Superfund Amendments and Reauthorization Act of 1986, provides for
full recovery from responsible parties of all response costs incurred by the Federal Government.
Response costs generally include expenses for investigations, cleanup, enforcement, and
administrative activities.

The 1986 Act also provides that the Inspector General will conduct an annual audit of all
payments, obligations, reimbursements, or other uses of the Superfund to assure that the fund is
being properly administered.

Purpose and Scope of Audit

The purpose of our audit was to determine whether NIST had properly managed the financial
aspects of its Superfund interagency agreements. We evaluated whether NIST had (1) accurately
accumulated, documented and charged EPA for the Superfund reimbursable costs;
(2) established adequate internal controls over reimbursable work related to the interagency
agreements; and (3) complied with the terms and conditions of its Superfund interagency
agreements with EPA. Our review covered interagency agreements entered into or continuing
between EPA and NIST during the period October 1, 1994 through September 30, 1995.

We reviewed NIST’s policies and procedures for accepting reimbursable work, identifying and
assigning actual costs to the project, and recovering all eligible costs. We also interviewed
NIST’s scientific and administrative personnel. Our review was conducted at NIST offices in
Gaithersburg, Maryland from April through May 1997.

To confirm direct costs, we reviewed the agency’s financial and program records as well as EPA
documents and records. In reviewing indirect costs, we limited the scope of our review to
performing an analytical review of indirect costs and rates charged, investigating any differences
from the previous fiscal year. We found no significant differences in the indirect cost rates we
compared.




                                                 2
Our audit included an evaluation of internal controls to the extent that they related to the
administration of the Superfund interagency agreements with EPA. We relied upon our own
review, as well as on the internal control reviews performed by the independent accountants for
NIST for FY 1995. We found a reasonable assurance that there was no material weakness in the
recording of the Superfund appropriations.

In our review, we obtained computer-based accounting data from NIST’s Office of the
Controller. We assessed the reliability of the data by tracing it to source documents and
comparing it to other summary data prepared by the laboratories. We found the data sufficiently
reliable to be used in meeting the audit objectives. We also evaluated the agency’s compliance
with laws and regulations applicable to the Superfund monies. We identified the Comprehensive
Environmental Response, Compensation, and Liability Act of 1980, as amended, as the
authorizing and governing legislation. The terms and conditions of the interagency agreements
were identified. The review was conducted in accordance with generally accepted government
auditing standards, and was performed under the authority of the Inspector General Act of 1978,
as amended, and Department Organization Order 10-13, dated May 22, 1980, as amended.

Superfund Charges Accurately Accumulated, Documented and Billed

Two NIST operating units entered into Superfund interagency agreements with EPA in fiscal year
1995. These operating units were the Technology and Chemistry Laboratories, each of which
received one newly funded agreement. When fiscal year 1995 began, EPA and NIST had two
continuing Superfund agreements. The Technology Laboratory received additional funding under
their previous award of $300,000. The Chemistry Laboratory obtained funding of $10,000 under
a new award. All funding was received in advance. See attached Appendices I through IV.

We tested the accuracy of the accounting data by tracing it to original source documents and to
the NIST/EPA entry recorded in the Working Capital Accounts. We compared the data to
summary information contained in the cost centers’ statements and other documents. All costs
were confirmed to their limitation ledgers and related to the NIST Working Capital Account.

In the NIST Technology and Chemistry Laboratories, the data was accurately recorded from time
sheets to their respective labor cost summaries and to the cost center statements to which they
applied. The NIST administration overhead charges were properly documented in their respective
cost centers. We traced the indirect costs assigned to the laboratories to their cost center
reports. The data recorded in the accounting records was accurate and reliable in all material
respects and reflected reasonable costs incurred for the services provided by NIST.

The following are the Superfund agreements under which funds were received in advance of
expenses obligated or incurred during fiscal year 1995:




                                               3
                             EPA SUPERFUND AGREEMENTS
                         Unobligated                          Adjustment to                 Net
 Agreement                Beginning              NIST             Working           Unobligated
 Number                     Balance        Expenditures             Capital            Balance


 Technology Lab:
 DW1393-5578-01                $1,442                $1,379               $63                  $0
 DW1393-5578-05               300,000             129,680                   0            170,320


 Chemistry Lab:
 DW1393-6196-01                57,482                57,423                59                   0
 DW1393-7283-01                10,000                 9,233               767                   0
 (new advance)


 Totals                     $368,924            $197,715                 $889           $170,320

We determined that the costs for the interagency agreements projects were appropriately charged.
Costs incurred did not exceed the specified interagency agreement obligation limits. We found
that NIST properly reported the use of their Superfund funds, that all billings appeared reasonable
for the work performed or the objectives anticipated, and that NIST performed in compliance
with the applicable legislation. Moreover, as previously recommended by this office, all costs
were accumulated in segregated costs centers for the work performed under each of the separate
Superfund interagency agreements.

In summary, we found that NIST properly accumulated, documented, and billed all of the
Superfund work performed during fiscal year 1995 under the NIST/EPA Superfund agreements.
Our findings, therefore, result in no recommendations for action by NIST.


Attachments




                                                 4
                                                                            Appendix I

                   Summary of FY 1995 Obligations and Disbursements
                     Under Interagency Agreement DW1393-5578-01



                    Unobligated                 Expended      Adjustment            Net
                     Beginning            Appropriations      to Working    Unobligated
Object Class           Balance     (Cost Center 871-3399)         Capital      Balance


Personnel                                             $696                          696
Fringe Benefits                                        139                          139
Overhead DE                                             47                           47
Overhead OU                                            100                          100
Overhead NIST                                          397                          397


Totals                   $1,442                      $1,379          $63             $0


DE =           Applied for Depreciation
OU =           Applied for the Operating Unit
NIST =         Applied for NIST Administration




                                                 5
                                                                              Appendix II

                   Summary of FY 1995 Obligations and Disbursements
                     Under Interagency Agreement DW1393-5578-05



                    Unobligated                 Expended        Adjustment            Net
                     Beginning            Appropriations        to Working    Unobligated
Object Class           Balance     (Cost Center 871-3401)           Capital      Balance


Personnel                                             $66,589
Fringe Benefits                                        13,175
Overhead DE                                             3,130
Overhead OU                                             9,487
Overhead NIST                                          37,285
Misc. Expense                                             14


Totals                 $300,000                      $129,680           $0       $170,320


DE =           Applied for Depreciation
OU =           Applied for the Operating Unit
NIST =         Applied for NIST Administration




                                                 6
                                                                             Appendix III

                     Summary of FY 1995 Obligations and Disbursements
                       Under Interagency Agreement DW1393-6196-01



                       Unobligated                 Expended    Adjustment            Net
                        Beginning            Appropriations    to Working    Unobligated
Object Class              Balance     (Cost Center 839-2486)       Capital      Balance


Personnel                                            $11,178
Fringe Benefits                                       14,547
Personnel Benefits                                     5,145
Overhead DE                                            4,630
Overhead OU                                            7,040
Overhead NIST                                         14,662
Misc. Expense                                           221


Totals                     $57,482                   $57,423          $59             $0


DE =           Applied for Depreciation
OU =           Applied for the Operating Unit
NIST =         Applied for NIST Administration




                                                 7
                                                                      Appendix IV

                 Summary of FY 1995 Obligations and Disbursements
                   Under Interagency Agreement DW1393-7283-01



                                            Expended    Adjustment            Net
                    Advance           Appropriations    to Working    Unobligated
Object Class      From EPA     (Cost Center 839-0410)       Capital      Balance


Travel --                                     $4,530
Common Carrier
Travel --                                      4,703
Per Diem


Totals               $10,000                  $9,233          $767            $0




                                         8
